Office of
INSPECTOR GENERAL

  Audit Report




 Audit of the USITC Local Area Network
 Operations




 Report No. IG-01-96




                                         March 1996
                                           Date Issued
         INSPECTOR GENERAL




          UNITED STATES INTERNATIONAL TRADE COMMISSION

                                    WASHINGTON, D.C. 20436
March 15, 1995

                                 REVIEW OF USITC LOCAL
                               AREA NETWORK OPERATIONS


Since 1988, the Commission has invested a substantial amount of resources into
automating agency functions and implementing a Local Area Network (LAN) using Banyan
Vines that reaches virtually every employee. An audit report issued in September 1992
made numerous recommendations for improving security and procedures. The objectives of
this review were to: update the 1992 evaluation of the Commission's administration and
control of the LAN; assess the adequacy of LAN security; and evaluate the appropriateness
of Commission policies on use of the LAN.

This review was conducted by Cotton & Company in accordance with the Government
Auditing Standards issued by the Comptroller General of the United States. The auditors
found that the procedures were sufficient, in all material aspects, to provide for effective
LAN administration and control, but identified several areas in which controls should be
strengthened to remove potential security weaknesses.

The auditors found:

              Security control weaknesses exist regarding use of modems;

              Unauthorized and fictitious users are not deleted from the network on a timely
              basis;

              Procedures for investigating security violations should be strengthened;

              A security plan should be developed and security controls tested;

              Unauthorized persons have access to backup tapes;

              .Procedures for assuring compliance with software licensing requirements are
               inadequate;

              Procedures for transporting backup tapes are not documented;

              The disaster recovery plan is not tested;
              The titles and roles of network administrators should be clarified; and

              Policies regarding non-essential software and unofficial computer use should
              be established.

Recommendations addressing these findings are presented after each section in the report.

The Director of the Office of Information Services concurred with the findings and
recommendations. A summary of the Director's comments is presented after each finding
on pages 6 through 14. The Director's comments are presented in their entirety as an
appendix to the report.




                                            ane E. Altenhofen
                                           Inspector General
                                      REPORT ON REVIEW OF
                                         UNITED STATES
                               INTERNATIONAL TRADE COMMISSION
                                     LOCAL AREA NETWORK
                                          OPERATIONS


                                         OCTOBER 1995




Prepared by:.

Cotton & Company
Certified Public Accountants
Alexandria, Virginia
                                          CONTENTS


Objectives                                                                                      2

Scope                                                                                           3

Methodology                                                                                     3

Management Controls                                                                             4

Findings and Recommendations                                                                    4
        1.     Security Control Weaknesses Exist Regarding Use of Modems                        5
        2.     Unauthorized and Fictitious Users Are Not Deleted from the
                Network on a Timely Basis                                                       6
        3.     Procedures for Investigating Security Violations Should Be Strengthened          7
        4.     Security Plan Should Be Developed and Security Controls Tested         -         8
        5.     Unauthorized Persons Have Access to Backup Tapes                                 9
        6.    Procedures for Assuring Compliance with Software Licensing Requirements
                Are Inadequate                                                                 10
        7.    Procedures for Transporting Backup Tapes Are Not Documented                      11
        8.    Disaster Recovery Plan Is Not.Tested                                             12
        9.    Titles and Roles of Network Administrators Should Be Clarified                   13
       10.    Policies Regarding Non-essential Software and Unofficial Computer Use
                Should Be Established                                                          14

Commission Response                                                                       Appendix
                           REPORT ON REVIEW OF UNITED STATES
                            INTERNATIONAL TRADE COMMISSION
                            LOCAL AREA NETWORK OPERATIONS


        The United States International Trade Commission (ITC) is an independent Federal agency
with broad investigative powers on matters of trade. In its adjudicative role, ITC determines injury
and threat of injury by imports to United States industry.

        ITC has determined that it is more cost effective to use cross-servicing and timesharing
agreements rather than to maintain internal mini- or mainframe computer capability. Thus, it obtains
general data processing facilities from the National Institutes of Health, financial system support from
the Department of Interior, payroll services from the General Services Administration, and personnel
management support from the Department of Energy.

        Since 1988, however, ITC has invested substantial resources to automate agency functions and
implement a local area network (LAN). A LAN is a geographically confined computer-based
communications system capable of transmitting information or data among stations. lTC's LAN
system is Banyan Vines.

        As of September 1995, lTC's LAN consisted of 11 file servers running Banyan Vines 5.5,
several special application servers, such as a fax server, and approximately 470 personal computers as
workstations.

        The LAN supports a variety of office automation functions, including word processing,
electronic mail, spreadsheets, and end-user database applications. Software includes Windows,
Wordperfect, Lotus 1-2-3, dBase, Harvard Graphics,Timetalk, Electronic Mail (e-mail), and
Tackboard. The system contains unclassified as well as sensitive information, such as confidential
business information. Users are provided network and computer security training.

        As set forth in USITC Directive 1031, dated February 6, 1994, the Office Automation
Support Division (currently the Information Services Division), within the Office of Information
Services (OIS), is responsible for:

        •      Central network administration including all LAN connectivity and
               communication interfaces with computer service bureaus and main-
               frames, network hardware, software, maintenance, cabling, and user
               support.

        •      Office automation technical support including installing, maintaining,
               and supporting end-user equipment and software and providing end
               users with supplies and services as needed.

       •       Implementation of Federal government policies, principles, guidelines,
               and standards for LAN operations.

       •       LAN security.


                                                   1
        ITC has two primary objectives regarding LAN security. Although it is lTC's policy not to
store confidential business information on the LAN, many users process confidential business
information on the LAN and remove it once a task is complete. Therefore, confidential business
information, while being processed on the LAN or stored on backup tapes, must be protected against
security breaches. lTC's second objective is to protect data from being lost or altered, thus resulting
in economic loss caused by the need to recreate and reprocess data.

OBJECTIVES

        We reviewed lTC's policies and procedures for managing its LAN. Our overall objectives
were to update the 1992 evaluation of lTC's administration and control of the LAN, assess the
adequacy of LAN security, and evaluate the appropriateness of policies on LAN use. Specific
objectives were to:

        •      Determine if recommendations made in the 1992 Audit Report IG-04-
               92 and suggested .actions agreed upon by management and the Office
               of Inspector General (OIG) have been implemented and effectively
               address the findings.

       •       Determine if LAN security has been compromised, and evaluate
               computer system controls.

       •       Determine the existence of unauthorized or unlicensed software on
               personal computers (pes) and, if found, determine how programs
               were installed.

       •       Evaluate the appropriateness of allowing games, which may be part of
               authorized or licensed software, to be on ITC equipment.

       •       Identify the number of system administrators and the extent of their
               access to the LAN. Determine how they are selected and trained.
               Determine if their access to the LAN presents an excessive risk and
               what controls are in place to reduce that risk.

       •       Identify officials with responsibility for and access to off-site backup
               data and disaster recovery. Evaluate the' backup and recovery system
               and procedures and disaster recovery plan for compliance with laws
               and regulations and efficiency.

       •       Determine which employees can access LAN files (including deleted
               e-mail messages) other than their own and if a trail is left.

       •       Evaluate controls established to prevent virus infections and determine
               compliance.

       •       Review ITC policy and procedures for using ITC computer equipment
               for non-official use and evaluate for reasonableness, enforceability,
               and compliance with laws and regulations.

                                                  2
 SCOPE

       We conducted our review of lTC's policies and procedures for managing its LAN during
August and September 1995 at ITC headquarters in Washington, DC. The review was conducted in
accordance with generally accepted Government auditing standards.

MEmOOOWGY

           In the context of the above objectives, we:

           •       Interviewed selected ITC officials and reviewed documents to evaluate
                   ITC policies and procedures applicable to LAN administration, con-
                   trol, and security.

           •       Evaluated existing system controls, tested a sample of PCs to deter-
                   mine the existence of unauthorized or unlicensed software, and looked
                   for evidence of LAN security compromises or violations.

           •       Identified LAN network and group administrators, the extent of their
                   access to the LAN, and procedures to prevent security risks.

           •      Examined procedures for backing up the LAN and storing and access-
                  ing the backup devices, and interviewed the contractor that stores
                  backup tapes.

           •      Inquired about lTC's disaster recovery plan and security plan.

           •      Tested e-mail access to determine if users can access another user's e-
                  mail files and determined if e-mail can be retrieved from backup
                  devices by unauthorized staff.

           •      Tested and evaluated controls to detect or prevent virus infections on
                  ITC equipment.

           •      Evaluated the reasonableness and enforceability of ITC policies re-
                  garding non-official use of ITC equipment.

           •      Determined if actions taken to correct previous audit findings had been
                  effectively implemented.

           We used the following guidelines and operating regulations to evaluate lTC's LAN adminis-
tration:

           •      Federal Information Processing Standards Publication (pIPS PUB) No. 112,
                  Password Usage, dated May 30, 1985.

           •      Office of Management and Budget (OMB) Circular A-130, Management of
                  Federal Information Resources, effective June 25, 1993.

                                                     3
        •       Proposed Revision to OMB Circular A-130, Appendix III, Security of Federal
                Automated Systems (Federal Register, Volume 60, No. 63, dated April 3,
                1995).

        •       OMB Bulletin No. 90-08, Guidance for Preparation of Security Plans for
                Federal Computer Systems that Contain Sensitive Information, dated July 9,
                1990.

        •       Computer Security Act of 1987, Public Law 100-235 [HR 145], dated January
                8, 1988.

        •       United States General Accounting Office (GAO), Standards/or Internal
                Controls in the Federal Government, 1983.

        •       ITC Guidelines:

                •      Directive 1031, OIS, Office Automation Support Division, Mission and
                       Functions Statement, dated February 6, 1994.

                •      Directive 1360.1, Automated Data Security Procedures, dated July 21, 1993.

                •      Directive 1355, Handling and Safeguarding Confidential Business Information,
                       dated July 1, 1985.

                •      Directive 7102.1, Guidelines for using the USITC Local Area Network for
                       Electronic Mail and Bulletin Board Purposes, dated January 8, 1990.

                •      Directive 3050, Emergency Recovery Contingency Plan, dated March 8,
                       1993.

               •       Administrative Order 93-01, Adherence to Computer Software Licensing
                       Agreement and Copyright Restrictions, dated October 8, 1992.

               •       Banyan Network User's Manual, dated August 1993.

               •       OIS' Senior Network Administration Procedures, undated.

MANAGEMENT CONTROlS

         In planning and performing our review of lTC's LAN, we assessed lTC's management
control structure to the extent deemed necessary to plan and conduct the review and form conclusions
related to the review objectives and not to provide assurance on the management control structure.

FINDINGS AND RECOMMENDATIONS

       The findings and our recommendations are discussed below.



                                                 4
1.     Security Control Weaknesses Exist Regarding Use of Modems

       We noted several areas in which controls over the use of modems should be strengthened to
remove potential security weaknesses.

          •     We noted that some network users have stand-alone modems (external and
                internal) at their workstations. ITC indicated that some modems were provid-
                ed to dial out to host computers, in part because the modem pool was
                insufficient to meet peak workloads. ITC does not have an inventory of
                workstations with stand-alone modems and does not have procedures for
                controlling and monitoring their usage.

                ITC Directive 1360.1, Chapter I, Procedures for Remote Dial-Up Access, states that
                users connecting to the LAN remotely must use the central dial-up facility and may
                not dial the personal computer in their office.

                However, OIS is aware of instances in which users did not logout or turn off their
                computers after business hours. It is possible that users could remain logged into the
                LAN and simultaneously leave communications software running in the "answer"
                configuration thus enhancing the risk of unauthorized access to the LAN.

       •       ITC has one modem in the modem pool that is set to accept incoming calls
               without confirming the user's authenticity through the dial-back feature. This
               modem was established to permit users on travel status to access e-mail only.
               In order to access this modem, the user must be running.Banyan Vines
               software on the remote PC and have an account with a valid name and
               password combination. While these controls will help prevent security
               violations, we noted that ITC does not currently log users of this modem or
               maintain active and up-to-date lists of authorized users. Without user logs and
               regular monitoring of activity, ITC cannot detect and investigate potential or
               actual access by unauthorized users.

               OMB Circular A-130, Section 8.a(I)(g), Policy - Information Management Planning,
               states that agencies shall protect government information commensurate with the risk
               and magnitude of harm that could result from the loss, misuse or unauthorized access
               to or modification of such information.

      •         In response to a prior audit report recommendation, ITC established a dial-in
                modem pool with a dial-back control feature and implemented controls to
                monitor access authorization and actual activity. We noted, however, that
                OIS does not periodically prepare and distribute to office directors and
                supervisors reports identifying authorized users and actual activity. Because
                the dial-in facility is intended only for those having a specific need to access
                the network from an authorized remote location, periodic review by office
              . directors and supervisors will help assure that access is limited to persons
                needing access and that abuse does not take place.




                                                   5
                 The GAO Standards for Internal Controls in the Federal Government, Specific
                 Standard No.5, Supervision, states that qualified and continuous supervision is to be
                 provided to ensure that internal control objectives are achieved.

         Recommendations. We recommend that the Director of OIS:

a.      Determine the number and location of stand-alone modems not included in the modem pool
        and their usage rate; retrieve all external and internal modems; and determine if the modem
        pool should be increased to meet peak workloads. If OIS maintains that stand-alone modems
        are justified, establish special controls, such as a dial-back feature or limited hours of access.

b.      Prepare and update a report that identifies who has access to the modem without the dial-back
        feature and when authorization was granted and deleted.

c.      Establish procedures to identify and monitor the activity of the modem without the dial-back
        control feature that will enable OIS to detect and investigate unauthorized access.

d.      Circulate reports identifying authorized users of the modem pool and activity reports showing
        usage of the modems to office directors and supervisors on a periodic basis to assure that
        users are granted access only when necessary and that users are not abusing their access
        rights.

         Commission Response. OIS stated that the security threat resulting from unauthorized modem
use is minimal and the costand inconvenience of implementing additional reports and restrictions are
not justified. It did agree, however, to implement closer monitoring of failed login attempts via the
non-dial-back modem since doing so will not involve extensive administrator time.

       The General Counsel stated that the recommendation regarding limited hours of access to the
LAN would interfere significantly with legitimate agency business because employees work late hours
and on weekends.

        Auditors'Additional Comments. We agree that the proposed action will help identify
possible or actual instances of unauthorized LAN access. If incidents are identified, we think that
OIS should implement our other recommendations.

2.      Unauthorized and Fictitious Users Are Not Deleted from the Network on a Timely Basis

         ITC does not have procedures in place to assure that user identifications (IDs) are deleted on a
timely basis when employees are terminated or transferred within ITC. We noted that terminated and
transferred employees, including network administrators, remained on the LAN user access list after
termination or transfer dates. OIS indicated that if an employee's user ID was not deleted, in which
case the employee remains on the access list, the employee will not have access to the LAN if his or
her password was changed, or disabled. OIS cannot, however, produce a report that shows if or
when passwords are changed, or disabled.

        Based on discussions with various ITC representatives, and review of Directive 1360.1,
system administrators or coordinators (Group Administrators) are responsible for deleting user IDs or
requesting OIS to delete them when employees leave ITC or are transferred within ITC. OIS does

                                                    6
 not have procedures to assure that this is being done in a timely manner. Accordingly, access to the
 LAN may be granted to unauthorized personnel. OIS is responsible for LAN security and thus
 should assure that unauthorized users and user accounts are deleted from the system in a timely
 manner.

         We also noted several fictitious user IDs on the LAN. ITC does not have a policy or
 guidelines for creating, using, and deleting fictitious user IDs. Accordingly, a fictitious user 10 may
 be created inappropriately or remain longer than necessary or after the person who created it leaves
 lTC, thus increasing the risk of unauthorized LAN access.

         ITC Directive 1360.1, Section 4, Responsibilities, states that the Director of OIS is responsi-
 ble for administering the assignment and maintenance of user IDs and passwords for the LAN access
 including clearance of all departing ITC staff who have been assigned passwords.

        Recommendations. We recommend that the Director of DIS:

a.      Establish procedures to assure that Group Administrators have deleted user IDs-for all
        terminated and transferred employees on or before the individual's last workday or date of
        transfer.

b.      Establish and document policies and procedures to minimize the creation and use of fictitious
        user IDs and to assure that they are deleted as soon as they are no longer needed or before an
        employee using the fictitious ID leaves ITC.

         Commission Response. GIS stated that OIS has a procedure in place to verify that departing
employees are deleted from the network, although it involves a delay of up to one month from the
date the employee departs. GIS believes, however, that the security threat from departing employees
is small, and stated that it has not become aware of any actual or suspected threat of compromise or
destruction of data by departing employees.

        GIS stated that it will, however, implement an annual review of fictitious accounts to establish
the continuing need for each or to delete them.

        Auditors' Additional Comments. GIS procedures for verifying that departing employees are
deleted from the LAN appear adequate if Group Administrators are, in fact, deleting departing
employee IDs on or near their departure date. If DIS determines that Group Administrators are not
deleting departing employee IDs in a timely manner, DIS should either review and strengthen the
Group Administrator procedures or revise its procedures for assuring that IDs are deleted as soon as
employees depart the Agency.

3.      Procedures for Investigating Security Violations Should Be Strengthened

        GIS should strengthen current procedures for reviewing possible or actual security violations.
An OIS representative stated that ITC does not regularly log all network activities, but rather has set
the system log to record only login and logout activities to minimize the use of network resources.
Such logs are only casually examined for potential security threats.



                                                   7
         OIS represented that it reviews the system log on the server for failed login attempts and
discusses them with the user. OIS does not, however, produce an exception report of failed login
attempts or document the results of its review of the system log.

        If a large number of bonafide login failures exists, and an exception report is not produced, a
true security violation may go undetected. In addition, if exception reports are produced, OIS will be
able to analyze login failures for patterns and thus minimize the number of failures or more easily
detect security violations.

        OIS' Senior Network Administration Procedures, Section I.A, System Performance/Security
Logs, states that the senior network administrator must maintain a weekly "Network Log" which
includes the token ring address of any individual who attempts to log into the network unsuccessfully
more than three times. Currently, OIS is not including this on its weekly Network Log.

        Recommendations. We recommend that the Director of OIS:

a.      Obtain software to produce an exception report from the system logs identifying actual or
        possible security violations.

b.      Establish procedures to investigate and resolve all possible security violations and document
        such resolution on the exception log for review by the appointed LAN security officer.

        Commission Response. OIS stated that the additional time and cost needed to investigate and
resolve all possible security violations would greatly outweigh the small amount of additional security
provided by implementing the audit recommendations. OIS will, however, re-establish the procedure
of recording the network hardware ("token ring") location of unsuccessfullogins on the weekly
Network Log.

       Auditors' Additional Comments. If OIS does not produce an exception report, OIS should, at
a minimum:

        •      Continue to review the system log for failed logins.
       .•      Discuss all failed login attempts with the LAN users.
        •      Include the token ring address for failed logins on its weekly Network Log.

4.     Security Plan Should Be Developed and Security Controls Tested

        OIS representatives indicated that ITC does not have a documented security plan. We noted
several practices established by OIS that increase the risk of security violations.

       •       LAN users have 24-hour 7-day-per-week access to the LAN. OIS indicated
               that it has observed that users sometimes leave their computers logged or
               powered on during evenings or weekends. If users had limited access to the
               LAN, OIS could set the system to automatically logoff users that did not
               logoff before leaving work.




                                                  8
         •      LAN users can logon to more than one workstation simultaneously. If a user
                logs on to a workstation other than his or her own and does not subsequently
                log off, another employee could access the files of the first user without
                proper authorization.

         •      One network administrator account is shared by five network administrators
                using the same password. OIS indicated that this account is used to perform
                backup functions, which are accomplished by any of the network administra-
                tors and generally require more than one administrator to complete. In the
                event that a backup is made for an unauthorized purpose, by a user of the
                shared account, OIS may not be able to detect who conducted the unautho-
                rized activity.

         OIS representatives indicated that the security risks associated with each of the above practices
have been considered and minimized by compensating controls. DIS should, however, have a
documented security plan that addresses lTC's consideration of each of the Banyan Vines Network
security options, identifies controls in place to minimize possible violations, and states the installation
standards adopted by ITC.

         OMB plans to implement proposed revisions to OMB Circular A-130, Appendix III, Security
of Federal Automated Information Systems, in the near future. This proposed revision will replace
OMB Bulletin 90-08. The proposed revisions require the development of security plans that include
specific security controls and periodic review of these controls.

        Recommendations. We recommend that the Director of OIS:

a.      Develop a security plan that complies with the requirements of the proposed revisions to
        OMB Circular A-130, Appendix III, and that addresses lTC's consideration of each of the
        Banyan Vines Network security options, identifies controls in place to minimize possible
        violations, and states the installation standards adopted by ITC.   \

b.      Establish a plan for reviewing security controls and assure that it is implemented in accor-
        dance with the requirements of the proposed revisions to OMB Circular A-130, Appendix ITI.

        Commission Response. DIS stated that it will develop a security plan that conforms to the
draft revised guidance in OMB Circular A-130.

5.      Unauthorized Persons Have Access to Backup Tapes

         OIS staff other than the network administrators have access to both daily and weekly backup
tapes. We noted that several OIS employees other than the network administrators had access to the
computer room and the combination to the containers in which the weekly backup tapes are kept.
The daily back-up tapes are kept in the computer room but not locked in containers. This increases
the risk that network data, including confidential business data, may be obtained by unauthorized
persons.




                                                    9
        In addition, the backup tapes are not erased or de-gaussed after they are returned from off-site
storage. OIS indicated that it backs up data for the current week on old backup tapes. If data for the
current week are not sufficient to copy over all data on the tape, the old data remain on the tape. In
the event the tapes are lost or stolen, ITC may not be able to ascertain the actual data lost.

        OMB Circular A-130, Section 8.a(I)(g), states that agencies shall protect government
information commensurate with the risk and .magnitude of harm that could result from the loss,
misuse or unauthorized access to or modification of such information.

        Recommendation. We recommend that the Director of OIS modify its procedures to require
both daily and weekly backup tapes to be safeguarded from unauthorized access by other than
network administrators, and erased or de-gaussed after they are returned from off-site storage.

        Commission Response. OIS stated that it will maintain a lockbox in the computer room for
the storage of backup tapes.

         Auditors'Additional Comments. We continue to think that erasing or de-gaussing the backup
tapes is necessary to identify compromised data in the event the tapes are lost or stolen.

6.      Procedures for Assuring Compliance with Software Licensing Requirements Are
        Inadequate

          ITC does not have adequate procedures to assure that it does not violate software copyright
restrictions. In response to a prior audit report recommendation, ITC began maintaining an inventory
list of software purchased by ITC. This list does not, however, include software installed by
computer vendors and does not indicate the total number of licenses owned by ITC for each software
program, including network software. The list also does not indicate on which computer the software
is installed and how many licenses are available for other users. Therefore, ITC cannot readily
determine the number of licenses it owns and the number available for other users.

        In addition, ITC does not maintain a record of what software is loaded on each PC and
compare this record to its inventory list. Accordingly, ITC cannot readily detect copyright violations.
Neither OIS nor employees could produce proper licenses for some software installed on PCs.

        U.S. Code, Title 17, Copyrights, states that anyone who violates any of the exclusive rights
of a copyright owner is an infringer of the copyright and is subject to action taken by the copyright
owner. ITC Administrative Order 93-01 states that ITC employees are prohibited from violating
copyright laws.

        An ITC representative indicated that many software packages are "self-metering," and that
ITC also obtains site licensing to assist in preventing copyright problems. Self-metering only works,
however, on network software. If network software is copied to a PC, the self-metering control will
not work. In addition, ITC purchased many stand-alone copies of software programs, which should
be monitored" to assure that the licensing agreements are not violated.




                                                  10
        Recommendations. We recommend that the Director of 015:

a.      Update its software inventory list to ensure that it contains all software for which ITC has a
        license, including software loaded on computers when purchased.

b.      Sort the inventory list by software program and total the number of licenses for each software
        program.

c.      Identify all software installed on each computer and assure that ITC or the employee has a
        valid license for each program.                                       .

d.      Maintain a record of authorized and licensed software on each computer and update this
        record when authorized software is added or deleted.

e.      Periodically check the software installed on a sample of computers against the most current
        record of authorized and licensed software for the computer.

f.      Take necessary actions to purchase additional licenses or delete unlicensed software from
        computers to assure compliance with copyright restrictions.

        Commission Response. OIS stated that it would be extremely expensive to track and
inventory software on all PCs in the agency and that this is not warranted by any evidence found
during the audit or other pattern of abuse in the agency. Agency policy makes each individual
responsible for complying with licensing requirements of software installed on his or her computer.
OIS also stated that it has purchased and is waiting for resources to install a software metering
program for LAN-based software that does not already have a built-in metering system.

        Auditors' Additional Comments. lTC's existing policy is not adequate to determine and
ensure compliance with licensing requirements for software not on the LAN. The use of "auditing"
software enables a person to determine all software installed on a computer. However, unless OIS
has an inventory of all software installed on the computers and all licenses, it cannot determine and
ensure compliance with licensing requirements.

7.      Procedures for Transporting Backup Tapes Are Not Documented

         ITC has a contract with a commercial vendor to store its LAN backup tapes at an offsite
location. The contractor transports the tapes from ITC to its storage facility in Herndon, Virginia.
ITC does not have documented procedures for the contractor or OIS personnel regarding the
transporting and releasing of backup tapes to assure the tapes are secure and are not accessible by
unauthorized persons. Security and control procedures should be documented to assure that they are
known by all parties and tested periodically to assure they are followed.

         Based on discussions with the storage contractor, it appears that procedures are in place to
safely transport backup tapes between locations. As discussed above, however, OIS should develop
and document procedures to assure that the contractor only releases backup tapes to representatives
authorized by OIS.




                                                  11
         GAO Standards/or Internal Controls in the Federal Government, Specific Standard No.1,
Documentation, states that internal control systems are to be clearly documented and the documenta-
tion is to be readily available for examination.

        Recommendation. We recommend that the Director of GIS document the procedures for
transporting backup tapes between ITC and the off-site storage facility and procedures for releasing
backup tapes to ensure that the tapes are safeguarded from unauthorized use or disposition.

      Commission Response. OIS stated that it has requested the contractor to provide brief
documentation of its standard procedures for handling backup tapes.

        Auditors' Additional Comments. While it is adequate to have the contractor document its
standard procedures for handling backup tapes, we think: OIS should, at a minimum, review the
procedures for consistency with its intended policy and supplement them with a list of persons
authorized to handle backup tapes.end their authorization levels.

8.      Disaster Recovery Plan Is Not Tested

         ITC issued a disaster recovery plan in March 1993, but has not updated or tested this plan.
The plan contains contact names of persons who are no longer ITC employees. In addition, ITC has
not tested the plan to ensure that:

        •       Points of contact and their telephone numbers are current and accu-
                rate.

        •       Contact persons are informed about their role and would be readily
                available in the event of an emergency.

        •       Hardware and software replacements would be available as required.

        •       Information about external services is current and accurate.

        In testing the disaster recovery plan, ITC should simulate a disaster and perform the necessary
steps to recover, such as preparing a list of parts or equipment needing replacement, contacting
vendors for availability, recalling backup tapes, and providing interim solutions to LAN users.

        OMB Circular A-130, Appendix III, Section 3.c.(3), Disaster and Continuity Plan, states that
agencies are to maintain disaster recovery and continuity of operations plans that are fully documented
and operationally tested periodically at a frequency commensurate with the risk and magnitude of loss
or harm.

       Recommendation. We recommend that the Director of OIS update and test its disaster
recovery plan and establish procedures to periodically update and test the plan in the future.




                                                  12
          Commission Response. OIS stated that the disaster recovery plan has already been updated as
 recommended and that it will run a simulation to test the plan. The simulation, however, will be
 limited to checking the validity of phone numbers, etc., due to resource constraints and to avoid
 disruption of agency work.

9.       Titles and Roles of Network Administrators Should Be Clarified

         We noted that various ITC directives and publications used different terms to describe
network administrators who have access rights to a limited area. For instance, Administrative
Announcement FY 91-40 uses the term Local LAN Administrator, Administrative Announcement FY
91-19 uses Local LAN Rep, and ITC Directive 1360.1 uses Designated Systems Administrators or
Coordinators. During our review, it appeared that there was not a clear distinction between persons
identified as LAN administrators, who have certain access rights, and LAN representatives who have
only user access rights and do not operate in the capacity of a network administrator. This caused
confusion for office supervisors and users because it was not clear who they should contact about
LAN matters or problems.           .

        ITC prepared a Network Administration Standards and Procedures Guide in June 1989, which
included tasks and functions that helped the LAN administrators to manage everyday functioning of
the LAN and its users. It set standards for performing specific LAN routines and identified
procedures to perform LAN tasks correctly and meet established standards. An OIS representative
indicated that this document is no longer used and was possibly replaced by the USITC Banyan
Network Users' Manual. The users' manual was produced in August 1993, for the purpose of
providing a source for end users to better utilize the network resources. It does not include standards
and guidelines for network administrators.

        GAO Standards/or Internal Controls in the Federal Government, Specific Standard No.1,
Documentation, states that internal control systems should be clearly documented and the documenta-
tion should be readily available for examination.

        Recommendations. We recommend that the Director of OIS:

a.      Issue a statement to all LAN users clarifying the titles, and describing the roles and responsi-
        bilities assigned to each level of LAN administrator.

b.      Reissue a Network Administration Standards and Procedures Guide to all LAN administrators.

        Commission Response. OIS stated that it does not agree that inconsistency in the use of
terms for Network Administrators in various directives results in confusion or impediment to
obtaining services or assistance. It stated that it will review and revise the terms for consistency as
the documents are modified.

        Auditors' Additional Comments. During our review, we noted confusion between the terms
and think that a statement identifying duties and responsibilities will be helpful. In addition, we
continue to believe that OIS should reissue a Network Administration Standards and Procedures Guide
to all LAN administrators.



                                                   13
10.     Policies Regarding Non-essential Software and Unofficial Computer Use Should Be
        &tablished

        We determined that ITC does not have policies or guidance regarding the use of computer
equipment for non-official business or the availability of software that is not essential for an employee
to perform his or her duties. We could not determine the extent, if any, that employees used
computers for non-official business. We did observe, however, that there were two games on the
network (in Windows Software) and one game on the C:/ drive of one other computer.

         We did not find any specific Federal guidance prohibiting non-essential software on Govern-
ment computers or the use of Government computers for non-official business. However, the
proposed revision to OMB Circular A-130, Appendix III, (Federal Register, Volume 60, No. 63,
dated April 3, 1995) stresses management controls such as individual responsibility and accountability
rather than technical controls. For instance, an important new requirement for security plans is the
establishment of rules of behavior for individual users. These rules should clearly delineate
responsibilities and expectations of individuals with access to the system. The rules should cover
such matters as unofficial use of government equipment and the assignment and limitation of system
privileges. The proposed revision introduces the concept of "least privilege" which restricts the
user's access or type of access to the minimum necessary to perform his or her job.

        Recommendation. We recommend that the Director of OIS write proposed policies for
commissioner approval regarding the use of Government equipment for non-official business and the
availability of non-essential software in accordance with the principles of "least privilege."

        Commission Response. OIS stated that it does not agree that ITC does not have policies or
guidance regarding the use of computer equipment for nonofficial business because it is covered in the
mandatory annual Federal employee ethics training by the General Counsel. In addition, guidance on
the use of agency facilities to access the Internet and for job-search purposes has been recently issued
by the Chairman. OIS does not regard the use of legal but non-essential software as a problem.

        OIS stated that with respect to its policy approach to controlling access to information on its
computer systems, ITC is in a relatively low-threat environment. Access controls are applied on a
need-to-know basis for systems and databases needing protection. For the general LAN systems, OIS
believes that maximum sharing of information results in improved work processes and forming of
teams across organizational boundaries.

        OIS stated that it will review with the General Counsel and make a recommendation on the
need and format for guidance on authorized non-official uses of agency computer facilities. It will be
along the lines of the GSA guidance on authorized non-official telephone use and existing agency
guidance on authorized non-official use of the Internet.




                                                   14
                                                                           Appendix




  UNITED STATES INTERNATIONAL TRADE COMMISSION
  - - - - - - - _ . _ - - - - - ------_._---- . _ - - - - - - - - - -

                             WASHINGTON, DC 20436




December 15, 1995

Memorandum


To:             The Inspector General                          '    -r;   /5
From:          Director, Information Services        AJ.Vi( lAJV~
Subject:       Agency response to draft LAN Operations audit report


The subject audit concentrated mainly on security ofLAN operations. The results
ofthe review confirmthat the agencyis maintaining an appropriatebalance
between cost, user convenience and security in our network operations.

The primary goals of our LAN securitypolicies are to avoid economic loss of
staffwork product; to avoid compromise of sensitive data; and to discourage
employee abuse of software licenses. These goals are based on our assessment of
the actualrisks in our computing environment, taking into account the level of
sensitivity of our data and the likely constraintson partieswith a motive for
gettingunauthorized access to or destroying data on our systems.

The audit found no definite or probableinstances of security violations, no
evidence of significant loss or destruction of data or other work product, and no
evidence of widespread or intentional violations ofintellectual property (i.e.,
illegal software use.)

The specific securityweaknesses identified in the report are mainly cases where
there is a lack of documentation or a lack of positive control over relatively minor
risk factors. However, the auditors did make severalworthwhile
recommendations that we are implementing or will implement as resources
permit.
                                                                                        Page 2


 Our response to the specific findings is as follows. The Office of Information
 Services (OIS) will complete the actions noted on all issues on or before July 1,
 1996~·                               ~


 1.      "Security control weaknesses exist regarding use of modems." The
 auditors recommend implementing much more restrictive controls on modem use
 in the agency, and new reports on dial-in access traffic. OIS believes the threat
 from this source is minimal and the cost and inconvenience of the additional
 reports and restrictions are not justified.

 Action item: We will implement closer monitoring offailed attempts to log in to
 the network via the non-dial-back facility since we have identified a way of doing -
 this that does not involve extensive administrator time.

  2.      "Unauthorized and fictitious users are not deleted from the network on a
  timely basis." The "fictitious users" referred to are accounts established for such
  purposes as network administration, weekend data backup, students using the ITC
. training room, etc. OIS has a procedure in place that double-checks -that program-
  office LAN administrators have deleted departing employees from the network.
  The procedure is not perfect and it does involve a delay of up to 1 month from the
  time the user stops using the network. However, we believe the threat from
  departing employees is small, and we have never become aware of an actual or
  suspected case of compromise or destruction of datafrom this source. The
  auditors did discover one case where an administrator account was not deleted or
  deactivated within a few weeks ofthe departure of an OIS employee, but we were
  able to positively confirm that his account was never used after the employee's
  departure, and the data access available to that account was noncritical.

 Action item: We will implement an annual review of fictitious accounts to
 establish the continuing need for each or to delete them.

3.      '(Procedures for investigating security violations should be strengthened."
We believe that the small additional security provided by the measures suggested
by the auditors would be very greatly outweighed by the additional time and cost
needed to «investigate and resolve all possible security violations" (including the
very common occurrence of a failed login attempt.)

Action item: We will re-establish the procedure of recording the network
hardware ((token ring") location of unsuccessfullogins.

4.        "Security Plan should be developed and security controls tested."

Action item:     We will develop a security plan that conforms to the draft revised
                                                                                     Page 3


OMB .guidance in Circular A-130.

5.      "Unauthorized persons have access to backup tapes." Several OIS staff
members other than the network administrators have access to the main computer
room as a requirement for performance oftheir duties. They are thus not
"unauthorized," and are subject to the same legal and policy sanctions as
administrators for any possible abuse of their access to ITC computer systems.
However, we do agree that security could be enhanced somewhat at little or no
cost by maintaining a lockbox in the computer room for the storage of backup
tapes.

Action item:   We will implement a tape lockbox in the computer room.

6.      "Procedures for assuring compliance with software licensing requirements
are inadequate." It would be extremely expensive for the agency to attempt to
track and inventory software on all pes in the agency. Nor is this warranted by
evidence from the audit or otherwise of any pattern ofabuse in the agency.
Agency policy clearly makes each employee responsible for complying with
licensing requirements of software they may install or permit to be installed on
their computers. A reminder ofthis policy was sent to all employees this past
summer, along with an offer to make "auditing" software from the Software
Products Association available to individuals or managers who want their PCs or
those in their units checked. Licenses for LAN-based software are clear enough
in most cases that no special tracking procedure is needed. For example, we have
agencywide licenses for e-mail and wordprocessing software. To help us track
usage for license-compliance purposes where that is necessary because the vendor
does not provide built-in metering we have bought and are waiting for resources
to be available to install a software metering program.                      .

Action item: We will implement software metering for LAN-based software as
needed and feasible.

7.     "Procedures for transporting backup tapes are not documented."

Action Item: We have asked the contractor to provide brief documentation of
their standard procedures for handling tapes.

8.     "Disaster recovery plan is not tested."

Action item: The ITC Disaster Recovery Plan has already been updated as
recommended. We will run a simulation to test the plan. (However, we will limit
the simulation to checking the validity of phone numbers, etc. in view of resource
constraints and to avoid disruption of agency work.)
                                                                                       Page 4


9.     "Titles and roles of network administrators should be clarified." We do
not agree that inconsistency in use ofthe terms "Local LAN Administrator" and
"Local LAN Representative" in various directives results in significant confusion
(of agency staff) or impediment to obtaining services or assistance.

Action item: We will review the use ofthe terms "LAN administrator" and
"LAN Representative" in agency guidance publications and revise them for
consistency as the documents are modified.

 10.    "Policies regarding non-essential computer use should be established."
We disagree that "the ITC does not have policies or guidance regarding the use of
computer equipment for nonofficial business. . ." This is very adequately covered
in the mandatory annual Federal employee ethics training given to every
employee by the General Counsel. Guidance on specific issues related to use of
agency facilities for accessing the Internet have been issued recently, and
guidance and specific authorization to use agency computer facilities for job-
search purposes during the RIF period has also been issued by the Chairman.

We do not .regard use oflegal but "non-essential" software as a problem. Such
products might include screen savers, personal information managers (like a
Rolodex, but electronic) and other "personal productivity" software that may be
in the public domain or may be owned by employees.

With respect to our policy approach to controlling access to information on our
computer systems, we start from the fact that we are in a relatively low-threat
environment, so that measures designed for defense, intelligence or financial
systems are inappropriate. Where we do have systems or databases that need
protection, like confidential Dockets submissions, we apply access controls on a
need-to-know basis. However, for our general LAN systems we believe that
maximum sharing of information encourages the creative and entrepreneurial
efforts of staff to use all available tools to improve their work processes and form
teams across organizational boundaries.

Action item: OIS will review with the General Counsel and make a
recommendation on the need for and appropriate format for guidance on
authorized non-official uses of agency computer facilities, along the lines of the
GSA guidance on authorized non-official telephone use and the existing agency
guidance on authorized non-official uses of the Internet.
                                                               PageS




Chairman's approval of agency response to draft audit report


                                         Date:   r- If - $ C
                                                 I
